December 2005
Report No. 06-003


DRR’s Efforts to Recover Unclaimed
Deposits




             AUDIT REPORT
                                                                                                                   Report No. 06-003
                                                                                                                     December 2005


                                        DRR’s Efforts to Recover Unclaimed Deposits
                                        Results of Audit

                                        Overall, the FDIC’s Division of Resolutions and Receiverships
Background and Purpose of               (DRR) has established and implemented an effective system for
Audit                                   tracking and recovering unclaimed deposits transferred to state
                                        unclaimed property agencies. DRR has ensured that unclaimed
The 1993 Unclaimed Deposits             deposits transferred under the UDAA are properly documented,
Amendment Act (UDAA) gives              monitored, and recovered in a timely manner.
account owners 18 months to claim
their deposits after the failure of a   Specifically, DRR has taken action since 2002 to address our prior
financial institution.                  audit findings and to improve the FDIC’s ability to monitor and
At the end of the 18-month period,      recover unclaimed deposits. DRR’s use of the Dividend
the FDIC transfers unclaimed            Processing System to monitor unclaimed deposit data and efforts to
deposits for failed FDIC-insured        reconcile unclaimed deposits data with state agencies have
financial institutions to the           improved the FDIC’s ability to track and recover unclaimed
appropriate state unclaimed property    deposits in a timely manner. UDAA funds due to the FDIC from
agency of the owner’s last known        state agencies during 2005 were recovered in a timely manner.
address.
The state maintains custody of the      Recommendations and Management Response
funds in accordance with its
unclaimed property laws for             Because we noted no significant exceptions during our audit work,
10 years from the date the FDIC         we made no recommendations related to the audit objective.
transferred the funds. After the 10-    However, we identified aspects of DRR’s guidance for recovering
year holding period, state unclaimed    and tracking UDAA funds that could be improved, and we will
property agencies must return any       provide that information to management in separate
unclaimed funds to the FDIC.            correspondence. DRR management advised us that it had no
The audit objective was to determine    official comments on a draft of this report.
whether the FDIC has adequate
systems in place to accurately track
and obtain the recovery of
unclaimed deposits.
                                                      Unclaimed       Unclaimed
We issued Audit Report No. 01-024                      Deposit
entitled, The FDIC’s Identification                   Accounts
                                                                 UDAADeposit
                                                                         Funds Due Estimated
                                                                        Funds
                                                                                    From
                                                                                    Accounts     Estimated
of and Accounting for Unclaimed           Year            StatetoUnclaimed
                                                    Transferred               Property
                                                                    Transferred  to DueAgencies
                                                                                        to the  Funds Due to
Deposits Transferred to State             Due       State Agencies  State Agencies    FDIC       the FDIC
Unclaimed Property Agencies, in          2005               11,687     $ 3,301,930        9,115   $ 1,790,995
                                         2006               53,226       19,557,514     50,747     15,720,281
December 2001, indicating that the
                                         2007                1,593        1,947,582       1,536     1,802,686
FDIC’s systems to record unclaimed       2008                  317          152,977         312       149,246
deposits were not effective. In          2009                     5             107           5           107
accomplishing our objective, we          2010               20,997        4,060,419     20,987      4,050,514
followed up on the findings from         2011                1,142          267,309       1,112       252,189
our prior report.                        2012                  535          224,126         511       211,235
                                         2013                   70           19,131          69        18,693
                                         2014                3,155          724,565       3,155       724,565
                                         2015                  492          540,917         492       540,917
To view the full report, go to           Total              93,219     $30,816,582      88,041    $25,261,433
www.fdicig.gov/2006reports.asp           Source: The FDIC’s Dividend Processing System as of September 30, 2005.
Federal Deposit Insurance Corporation                                                                    Office of Audits
801 17th Street NW, Washington, DC 20434                                                    Office of Inspector General


DATE:                                  December 6, 2005

MEMORANDUM TO:                         Mitchell L. Glassman, Director
                                       Division of Resolutions and Receiverships



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Stephen M. Beard]
                                       Assistant Inspector General for Audits

SUBJECT:                               DRR’s Efforts to Recover Unclaimed Deposits
                                       (Report No. 06-003)

This report presents the results of the FDIC Office of Inspector General’s (OIG) audit of the
Division of Resolutions and Receiverships (DRR) efforts to recover unclaimed deposits. The
recovery process is the result of the 1993 Unclaimed Deposits Amendment Act (UDAA) to the
Federal Deposit Insurance Act (FDI Act). UDAA extended the time period to 18 months for
account owners to claim their deposits after the failure of a financial institution. The audit
objective was to determine whether the FDIC had adequate systems in place to accurately track
and obtain the recovery of unclaimed deposits. The OIG issued Audit Report No. 01-024
entitled, The FDIC’s Identification of and Accounting for Unclaimed Deposits Transferred to
State Unclaimed Property Agencies, in December 2001, indicating that the FDIC’s systems to
record unclaimed deposits were not effective. In accomplishing our objective, we followed up on
the findings from our prior report. Additional details on our objective, scope, and methodology
are in Appendix I.

BACKGROUND

For failed FDIC-insured depository institutions taken into receivership after June 28, 1993,
owners of unclaimed deposits have 18 months to claim funds from the FDIC or the acquiring
institution. If account owners do not claim deposits from acquiring institutions by the end of the
18-month period, those institutions must transfer the unclaimed funds to the FDIC. At the end of
the 18-month period, the FDIC transfers all unclaimed deposits to the appropriate state
unclaimed property agency of the owner’s last known address.* The state maintains custody of
the funds in accordance with its unclaimed property laws for 10 years from the date the FDIC
transferred the funds. After the 10-year holding period, state unclaimed property agencies must
return to the FDIC any funds that account owners have not claimed.

DRR uses the Dividend Processing System (DPS) as its automated system of record to track
unclaimed deposits. DPS provides a variety of reports on the amounts originally transferred, by
receivership; funds reported by each state as paid out to account owners; and current balances to

*
 For the purposes of this report, the state unclaimed property agency includes the District of Columbia and Puerto
Rico. If a state agency refuses to accept custody of the unclaimed deposits offered by the FDIC, the account owner
can claim funds from the FDIC until the Corporation terminates the associated receiverships.
be returned to the FDIC. As of September 30, 2005, DPS was tracking unclaimed deposits,
related to 158 failed financial institutions, that had been transferred to 52 state unclaimed
property agencies. These deposits involved 93,219 accounts totaling approximately $31 million.

Policies and procedures for tracking UDAA funds are contained in the FDIC Field Financial
Operations Accounting Manual and the DPS Users Manual. After the end of the 18-month
period for claiming funds from an acquiring institution, DRR downloads the unclaimed deposits
by receivership, account number, depositor name, last known address, and account balance to
DPS. DPS sorts unclaimed accounts by the state of the owner’s last known address to provide an
inventory of accounts to be transferred to each state and the amount of funds to be issued to the
state agency. DRR then transfers the unclaimed deposit account information along with a check
for the funds to the appropriate state agency. Once the funds are transferred, DPS tracks the
balances of UDAA funds by receivership and maturity date through the 10-year holding period.
When state unclaimed property agencies provide updated information on the status of UDAA
funds returned to account owners during the 10-year holding period or when agencies return
transferred funds to the FDIC, DRR records adjustments to the unclaimed deposit balances in
DPS.

DRR’s Bank Account Control Unit (BACU) staff is primarily responsible for tracking and
recovering unclaimed deposits transferred to state agencies. The UDAA does not require the
states to report to the FDIC on the status of transferred UDAA funds but does require that the
state return any unpaid balances to the FDIC at the end of the 10-year holding period.
Throughout the 10-year holding period, BACU attempts to work with state agencies to identify
funds returned to account owners in order to update the amount of unclaimed deposits that may
be returned to the FDIC. Table 1 shows BACU’s most recent estimate of unclaimed deposit
recoveries by year. A listing of unclaimed deposits, by state, is shown in Appendix II.

Table 1: Unclaimed Deposits Transferred to State Unclaimed Property Agencies
                                                                Accounts        Funds      Estimated
 Year     Accounts        Funds       Accounts      Funds      Returned to   Returned to   Accounts     Estimated
  Due    Transferred   Transferred    Paid Out    Paid Out      the FDIC      the FDIC        Due       Funds Due
 2005         11,687    $ 3,301,930         440   $ 744,598          2,132      $766,336        9,115    $ 1,790,995
 2006         53,226     19,557,514        2413    3,852,664            66         4,568       50,747     15,720,281
 2007          1,593      1,947,582          57      144,895             0             0        1,536      1,802,686
 2008            317        152,977           5        3,731             0             0          312        149,246
 2009              5            107           0            0             0             0            5            107
 2010         20,997      4,060,419          10        9,904             0             0       20,987      4,050,514
 2011          1,142        267,309          30       15,120             0             0        1,112        252,189
 2012            535        224,126          24       12,890             0             0          511        211,235
 2013             70         19,131           1          438             0             0           69         18,693
 2014          3,155        724,565           0            0             0             0        3,155        724,565
 2015            492        540,917           0            0             0             0          492        540,917
 Total        93,219    $30,816,582       2,980   $4,784,244         2,198   $770,904.53       88,041    $25,261,433
Source: The FDIC’s DPS as of September 30, 2005.




                                                       2
RESULTS OF AUDIT

Overall, DRR has established and implemented an effective system for tracking and recovering
unclaimed deposits transferred to state unclaimed property agencies. DRR has ensured that
unclaimed deposits transferred under UDAA are properly documented, monitored, and recovered
in a timely manner. Specifically, DRR has taken action since 2002 to address our prior findings
and improve the FDIC’s ability to monitor and recover unclaimed deposits. DRR’s conversion
of unclaimed deposit data to DPS and efforts to reconcile unclaimed deposits data with state
agencies have improved the FDIC’s ability to track and recover unclaimed deposits in a timely
manner.

DPS Tracking System

DRR has made significant progress in updating and tracking the FDIC’s records related to
UDAA funds transferred to state unclaimed property agencies. Prior to December 2002, DRR’s
UDAA tracking system consisted of seven separate databases with incomplete data on UDAA
transferred funds. For example, the databases did not contain the funds transferred to all
unclaimed property agencies. In December 2002, DRR converted the data from these seven
databases to DPS and assigned responsibility for monitoring UDAA data in DPS to BACU in the
Dallas Regional Office. During the conversion and verification process, BACU identified 117
UDAA transfers recorded in DPS that could not be confirmed through the FDIC’s accounting
records. These transfers could not be confirmed because either the cancelled check could not be
located to verify that the transfer had been received by the state agency or the amount of funds
recorded in DPS differed from the amount recorded in the FDIC’s accounting records. To
facilitate the resolution of these unsupported transfers and to reconcile the FDIC’s UDAA
balances with those of the state unclaimed property agencies, BACU requested updated
information from the state agencies in July 2003. BACU provided the 52 state agencies with a
detailed listing of the DPS inventory of unclaimed deposit accounts transferred to the respective
agencies. As of October 20, 2005, BACU reported that it had resolved 92 of the 117
unsupported transfers and had verified 92,847 of the 93,219 unclaimed deposit accounts listed in
DPS.

In addition to verifying the transferred funds in the FDIC’s records, BACU has worked to
reconcile the FDIC’s UDAA balances with those of the 52 state agencies. As of September 30,
2005, BACU reported that it had reconciled the FDIC’s records with 39 of the state agencies.
The remaining 13 had not been reconciled due to incomplete data provided by those states.
However, BACU is continuing to work with the state agencies to complete the reconciliation.

To evaluate the DPS UDAA tracking system and verify BACU’s reconciliation procedures, we
reviewed BACU’s correspondence files for each of the 52 state unclaimed property agencies and
verified that all adjusting entries, which had been based on data provided by the states, were
properly supported and correctly entered into DPS. To evaluate the completeness of DPS data,
we identified 91 receiverships that had been established after the enactment of UDAA and
compared them with the inventory of unclaimed deposits, by receivership, in DPS. We
identified 14 receiverships that were not listed in DPS and verified that the DPS data were
accurate because these receiverships did not have unclaimed deposits to transfer to state
agencies. We concluded that the reconciliation process was documented, adjusting entries were
adequately documented and properly approved, and DPS tracking data were complete.

                                                3
Recovering UDAA Funds

For the period reviewed, we found that DRR’s procedures for recovering UDAA funds ensured
that state agencies had been notified in a timely manner when unclaimed deposit funds were due
to the Corporation at the end of the 10-year holding period and that the states had been informed
of the process for returning unclaimed deposits to the FDIC. If funds are not received by the end
of the 10-year holding period, BACU mails a Custodial Reminder letter to the respective state
unclaimed property agency during the first week of the month in which funds are due.
According to DRR, funds are considered to be due within 45 days from the date of the Custodial
Reminder. The letter includes a listing of the transferred funds, by depositor account, and
requests that the state identify which accounts have been paid to account owners. The Custodial
Reminder letter also includes an affidavit to be signed by the state agency, certifying that any
funds not returned to the FDIC had been paid to the account owner during the 10-year holding
period. When the FDIC recovers the funds, BACU records the recovered amount in the DPS.

As of September 20, 2005, DRR had issued Custodial Reminders relating to $785,536 in UDAA
funds transferred to 13 state agencies, and $770,904 had been recovered by the FDIC by the
10-year maturity dates. One state agency with funds totaling $14,632 advised BACU that the
agency needed additional time to process the request. We found that BACU was working with
this agency during our fieldwork to ensure that the funds would be recovered in a timely manner.

To evaluate the accuracy of DRR’s system for recovering unclaimed deposits, we selected a
sample of unclaimed deposit funds due from 10 state agencies to verify that the Custodial
Reminders had been issued in a timely manner and that the recoveries of unclaimed deposits
were timely and properly recorded in DPS. Additionally, we traced DPS entries to the
supporting documentation and verified whether the state agencies had properly completed the
affidavits. We noted no exceptions.

Conclusion

DRR has made significant improvements to ensure that the FDIC has adequate systems in place
to accurately track and recover unclaimed deposits. DRR’s procedures for recovering unclaimed
deposit funds have ensured that UDAA funds due to the FDIC during 2005 were recovered in a
timely manner. Because we noted no significant exceptions during our audit work, we are
making no recommendations related to the audit objective. However, we have identified aspects
of DRR’s guidance for recovering and tracking UDAA funds that could be improved, and we
will provide that information to management in separate correspondence.


CORPORATION COMMENTS

On November 23, 2005, DRR advised the OIG that it had no official comments on a draft of this
report.




                                                4
                                                                                  APPENDIX I

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the FDIC has adequate systems in place to
accurately track and obtain the recovery of unclaimed deposits. DRR’s policies and procedures
established for tracking and recovering unclaimed deposits are included in the FDIC Field
Financial Operations Accounting Manual and DPS Users Manual. The audit scope covered the
FDIC’s balance of UDAA unclaimed deposits due prior to and as of September 30, 2005. As of
this date, the FDIC’s DPS reported about $31 million in unclaimed deposits transferred to state
agencies. We performed our work from July through September 2005 in accordance with
generally accepted government auditing standards.
To accomplish our objectives and to gain an understanding of internal controls, we reviewed the
following documents:
   •   FDIC Field Financial Operations Accounting Manual, dated November 2004.
   •   DRR Claims Manual, dated June 2003.
   •   DPS Users Manual, dated October 2003.

We interviewed key personnel in DRR’s General Accounting Section, Operations Accounting
Section, and Internal Review Section to further identify procedures for tracking and recovering
unclaimed deposits and other related activities. We reviewed BACU’s reconciliation process for
all 52 state unclaimed property agencies by comparing source documentation to DPS. Also, we
selected a random sample of 10 recoveries of unclaimed deposits from state agencies for the
period January 1, 2005 through August 31, 2005. For each recovery, we verified whether the
funds submitted by the respective state agency were accurately recorded in DPS, the affidavit was
properly submitted by the state, the Custodial Reminder letter was issued in a timely manner, and
the funds were received prior to the due date set by the FDIC (45 days after issuance of the
Custodial Reminder letter). We also reviewed correspondence and related documentation for the
reconciliations conducted between DRR and the state agencies. During that review, we traced
items to DPS records as necessary to verify adjustments to FDIC unclaimed deposits records.
Additionally, we reviewed BACU’s process related to writing off unclaimed deposits, which we
will address in separate correspondence. To ensure that DPS included a complete listing of FDIC
receiverships with UDAA unclaimed deposits, we obtained a listing of all receiverships
established after June 1993 and compared it with an unclaimed deposit listing for receiverships
recorded in DPS. We then obtained information from DRR’s Claims Section, confirming that
any receivership not listed in DPS did not have unclaimed deposits 18 months after the
receivership had been established.
We reviewed OIG Audit Report No. 01-024, The FDIC’s Identification of and Accounting for
Unclaimed Deposits Transferred to State Unclaimed Property Agencies, dated December 5, 2001,
and found that all corrective actions included in the report had been completed by DRR. We also
reviewed a DRR Internal Review report entitled, Review of DRR Unclaimed Deposits, dated
July 20, 2005.




                                               5
                                                                                    APPENDIX I

Government Performance and Results Act, Reliance on Computer-based Data, Internal
Control, Compliance with Laws and Regulations, and Fraud and Illegal Acts

Consistent with the Government Performance and Results Act of 1993, the FDIC has established
goals and objectives to measure and improve performance. During the audit, we reviewed the
FDIC’s 2005 Annual Performance Plan and the FDIC’s 2005 Strategic Plan. The FDIC did not
include performance goals related to the recovery of unclaimed deposits in the plans.

With respect to computer-based data, we relied on DPS to achieve our audit objective. As
discussed previously in this appendix, we used DPS data for reviewing the BACU reconciliation
process, testing whether state agencies followed UDAA requirements and verifying that BACU
made proper adjustments to unclaimed deposit records based on reconciliations it conducted with
state agencies. Further, as described in our Results of Audit, we conducted tests of DPS data
relevant to our audit objective and found that the data were complete and accurate.

During the audit, we gained an understanding of relevant control activities related to processing
unclaimed deposits by examining DRR’s policies and procedures as presented in the Field
Financial Operations Accounting Manual and DPS Users Manual. We identified DRR’s
internal controls related to the tracking and processing of recovered funds from unclaimed
deposits. Specifically, we reviewed the procedures for reconciling and recovering unclaimed
deposits and processes for making adjustments in DPS. Also, we conducted tests of internal
control activities necessary to conclude on the audit objective.

Regarding compliance with laws and regulations, we gained an understanding of the 1993
unclaimed deposits amendments to the FDI Act, 12 United States Code § 1822(e). Our audit
program included steps for evaluating compliance with applicable laws and regulations and for
providing reasonable assurance of detecting fraud or illegal acts.




                                                6
                                                                                                     APPENDIX II


                  UNCLAIMED DEPOSITS TRANSFERRED TO STATE UNCLAIMED
                                 PROPERTY AGENCIES


                                          Number of                                                  Number of
        Number of                         Unclaimed                                 Amount of        Outstanding    Amount of
        Unclaimed      Amount of           Deposit      Amount of       Number of   Unclaimed        Unclaimed      Outstanding
          Deposit      Unclaimed          Accounts      Unclaimed       Unclaimed    Deposit           Deposit      Unclaimed
         Accounts     Deposit Funds        Paid by     Deposit Funds    Accounts      Funds            Funds       Deposit Funds
        Transferred   Transferred to       States to   Paid by States   Recovered   Recovered        Transferred   Transferred to
State    to States       States           Depositors   to Depositors     by FDIC     by FDIC          to States       States
AK              16    $        1,988.55            4   $    1,602.40           0    $         0.00            12   $          386.15
AL           1,730           410,792.60           82      164,940.84           0              0.00         1,648          245,851.76
AR              26             1,576.20            3          155.81           0              0.00            23            1,420.39
AZ           2,208           714,381.42          158      227,634.78           1         18,606.59         2,049          468,140.05
CA          41,221        13,258,214.42           71       31,213.30         492        240,327.45        40,658       12,986,673.67
CO             157            40,725.86            0            0.00           0              0.00           157           40,725.86
CT             452           293,657.74            0            0.00           0              0.00           452          293,657.74
DC              35            22,035.41            0            0.00           0              0.00            35           22,035.41
DE              94           133,741.40            0            0.00           0              0.00            94          133,741.40
FL           9,262         3,484,794.57        1,143    2,063,016.60           0              0.00         8,119        1,421,777.97
GA             724           208,090.51            0            0.00           0              0.00           724          208,090.51
HI              95            62,440.84            1           90.00           0              0.00            94           62,350.84
IA              59            16,758.14            0            0.00           0              0.00            59           16,758.14
ID               8             5,347.77            2        5,250.67           0              0.00             6               97.10
IL           2,057           620,846.17          102       41,978.65          66          1,796.98         1,889          577.070.54
IN              51            21,752.75            4        7,438.54           0              0.00            47           14,314.21
KS             467           169,142.60           29       95,652.86           0              0.00           438           73,489.74
KY              23             2,316.89            2        1,419.04           0              0.00            21              897.85
LA             785           362,773.14            0            0.00           0              0.00           785          362,773.14
MA           1,824           298,213.57           21       87,565.44           0              0.00         1,803          210,648.13
MD           1,142           552,720.42            1          600.00           0              0.00         1,141          552,120.42
ME              28            10,271.53            8        9,980.92           0              0.00            20              290.61
MI             367           171,454.91           26       69,966.05           0              0.00           341          101,488.86
MN              77            17,524.95            5        8,714.28           0              0.00            72            8,810.67
MO             115            95,296.09           24       42,538.37          66              0.00            91           52,757.72
MS              99            22,203.98           21       17,369.32           0          4,568.40            12              266.26
MT              17               264.81            0            0.00           0              0.00            17              264.81
NC             169           127,505.61           30       66,290.32           0              0.00           139           61,215.29
ND               5               534.62            2             .94           0              0.00             3              533.68
NE              21            41,214.96            3       21,866.45           0              0.00            18           19,348.51
NH             391            54,749.42            0            0.00           0              0.00           391           54,749.42
NJ           3,074         2,012,690.50          113      140,271.79           0              0.00         2,961        1,872,418.71
NM              35             3,509.50            4          544.29           0              0.00            31            2,965.21
NV              44             6,262.69            2        1,681.26           0              0.00            42            4,581.43
NY           2,714         1,183,891.72            0            0.00           0              0.00         2,714        1,183,891.72
OH           5,946         2,148,681.94          586      687,527.26           0              0.00         5,360        1,461,154.68
OK           1,017           580,492.46           31      187,445.49         962        390,769.33            24            2,277.64
OR             527           282,156.85            0            0.00           0              0.00           527          282,156.85
PA           5,012           830,491.23          147      373,067.39           0              0.00         4,865          457,423.84
PR              21               873.44            0            0.00           0              0.00            21              873.44
RI           6,497         1,173,437.30            0            0.00           0              0.00         6,497        1,173,437.30


                                                              7
                                                                                                      APPENDIX II



                                           Number of                                                  Number of
        Number of                          Unclaimed                                    Amount of     Outstanding    Amount of
        Unclaimed        Amount of          Deposit         Amount of       Number of   Unclaimed     Unclaimed      Outstanding
          Deposit        Unclaimed         Accounts         Unclaimed       Unclaimed    Deposit        Deposit      Unclaimed
         Accounts       Deposit Funds       Paid by        Deposit Funds    Accounts      Funds          Funds      Deposit Funds
State   Transferred     Transferred to      States to      Paid by States   Recovered   Recovered      Recovered    Transferred to
         to States         States          Depositors      to Depositors     by FDIC     by FDIC        by FDIC        States
 SC             488         80,218.78               77         42,921.58            0          0.00           411        37,297.20
 SD               5             64.89                0              0.00            0          0.00             5            64.89
 TN             347         71,967.54               40         29,948.92            0         14.00           306        42,004.62
 TX           1,035        321,540.17              104        138,314.68          519     94,877.93           412        88,347.56
 US               5        103,383.96                0              0.00            0          0.00             5       103,383.96
 UT              18          2,678.84                6          2,395.33            0          0.00            12           283.51
VA              974        276,451.42                3          8,319.40           43     15,204.22           928       252,927.80
 VT               9          1,588.76                3            848.65            0          0.00             6           740.11
WA              265        208,420.14               50        168,469.75           48      4,739.63           167        35,210.76
 WI              68         47,131.81                7         11,073.55            0          0.00            61        36,058.26
WV            1,389        257,193.58               65         26,129.45            0          0.00         1324        231,064.13
WY                4            122.81                0              0.00            0          0.00             4           122.81
Total        93,219    $30,816,582.18            2,980     $4,784,244.37        2,198   $770,904.53        88,041   $25,261,433.28
        Source: The FDIC’s DPS as of September 30, 2005.




                                                                  8
